OFFICE OF INSPECTOR GENERAL




AUDIT OF USAID/GHANA’S
PROGRAM TO INCREASE
PRIVATE SECTOR
COMPETITIVENESS

AUDIT REPORT NO. 7-641-07-002-P
May 31, 2007




DAKAR, SENEGAL

Office of Inspector General


May 31, 2007

MEMORANDUM

TO:                     Acting USAID/Ghana Director, Dennis Weller

FROM:                   Acting Regional Inspector General/Dakar, Abdoulaye Gueye /s/

SUBJECT:                Audit of USAID/Ghana’s Program to Increase Private Sector Competitiveness
                        (Report No. 7-641-07-002-P)


This memorandum is our final report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report and included them in Appendix II.

This report contains two recommendations with which you concurred in your response to the
draft report. Based on appropriate action taken by the Mission, management decisions on both
recommendations have been reached and the recommendations are considered closed upon
issuance of this report. No further action is required of the Mission.

I appreciate the cooperation and courtesies extended to the members of our audit team during
this audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS
Summary of Results                                                   1


Background                                                           3


Audit Objective                                                      4


Audit Findings                                                       5


Is USAID/Ghana’s program to increase private sector 

competitiveness achieving its planned activities as intended?   


       A Key Poverty Alleviation Target
       Needs to Be Revisited                                        8


       Better Documentation of Monitoring
       Activities Needed                                             9


Evaluation of Management Comments                                   11 


Appendix I – Scope and Methodology                                  13 


Appendix II – Management Comments                                   15 

SUMMARY OF RESULTS

The Regional Inspector General/Dakar conducted this audit to determine if
USAID/Ghana’s program to increase private sector competitiveness is achieving its
planned activities as intended. (See page 4).

USAID/Ghana’s achievements through its program to increase private sector
competitiveness have been mixed. Although the partner receiving 85 percent of the
program funding achieved only slightly more than half of its planned activities in fiscal
year 2006, the activities that were achieved by this partner as well as other partners
have made a positive contribution to increasing the competitiveness of Ghana’s
agricultural products. In fiscal year 2006, only 27 of 46 planned results (58 percent) for
the Trade and Investment Program for a Competitive Export Economy (TIPCEE) were
achieved at the 90 percent level or higher, the threshold we used to determine
achievement. However, most of the planned results that were achieved were fully met
or exceeded, and TIPCEE also achieved two of its three key impact targets.
Additionally, activities conducted by the other partners receiving the remainder of the
funding had higher achievement rates (63 of 65 planned results). (See pages 5 to 8).

According to USAID’s Automated Directives System, targets should be ambitious but
achievable. During TIPCEE’s second year, USAID/Ghana increased a key poverty
alleviation target for the life-of-project from 30,000 to 100,000 rural households that
could benefit from the program. Mission management told us that they increased the
target in order to meet the goals of the presidential Initiative to End Hunger in Africa.
After the target was raised, geographic information system mapping revealed that there
were fewer rural households that could benefit from TIPCEE's interventions than the
Mission estimated when they increased the target to 100,000. As a result, the Mission
may be faced with shifting resources away from effective economic growth activities in
an attempt to achieve an ambitious but potentially unrealistic poverty alleviation target,
putting the achievement of other key indicators at risk. We recommend that the Mission
revisit and revise this target as necessary. (See pages 8 to 9).

During our fieldwork we noted that although the Economic Growth Team’s Cognizant
Technical Officers (CTOs) were actively monitoring partner activities, they did not
systematically document or maintain evidence of their monitoring activities. This
occurred because there were no established procedures specifically requiring
documentation of such actions. The Government Accountability Office’s Standards for
Internal Control in the Federal Government states that all transactions and other
significant events need to be clearly documented and that the documentation needs to
be readily available for examination. According to USAID’s Automated Directives
System, site visits are an important part of the CTO’s effective award management and
when site visits are made, a brief report highlighting the findings should be written and
placed in the award file. The Mission’s lack of documentation of partner contact could
result in key information not being available to current or future Mission management. To
address this weakness, we recommend that USAID/Ghana develop specific procedures
to require that the Cognizant Technical Officers document key contacts with
implementing partners including visits to monitor activities and reviews of performance
data. (See pages 9 to 10).




                                                                                        1
USAID/Ghana agreed with the findings and recommendations and based on actions
taken by the Mission, management decisions have been reached on the two
recommendations and both are considered closed upon issuance of this report. (See
page 11).




                                                                               2
BACKGROUND 

With a population of 23 million, Ghana possesses considerable economic growth
potential, setting it apart from other troubled countries in West Africa. However,
daunting challenges remain. While agriculture employs 60 percent of the work force, the
vast majority of farmers are subsistence smallholders who lack access to improved
technologies, market information and linkages to the private sector.

Under its Economic Growth Program, USAID/Ghana aims to increase the
competitiveness of the private sector to compete nationally, regionally and within the
global marketplace; improve the enabling environment for private sector development by
reforming the Ghanaian policy and regulatory landscape; modernize the agricultural
sector; and strengthen the private sector’s capacity to produce quality agricultural and
agro-processed products.

In FY 2004, USAID/Ghana signed an agreement with the Government of Ghana
committing $50 million to increase Ghana’s private sector competitiveness. As part of
that commitment, in December 2004, Chemonics International was awarded a $29.8
million contract to manage and coordinate a consortium of 8 implementing partners.
Under the name Trade and Investment Program for a Competitive Export Economy
(TIPCEE), the activities coordinated by Chemonics International comprise
USAID/Ghana’s flagship Economic Growth program. During FY 2006, TIPCEE’s export
business development component worked to improve agricultural export supply chain
systems to take Ghanaian horticulture to a level where it can effectively vie with well-
established international competitors to enter the European market.

While TIPCEE received the majority (85 percent) of USAID/Ghana’s Economic Growth
funding that was obligated as of September 30, 2006, the Mission continues to manage
the activities of 10 other implementing partners1 under this program. Most of these other
partners are involved in activities to improve Ghana’s enabling environment, such as
academic research or direct professional consulting to assist the Government of Ghana
with policy formation. Examples of USAID-funded research include macroeconomic
modeling to determine what impact a particular policy would have on poverty reduction,
developing new approaches to Ghana’s land tenure systems to encourage foreign
investment, and developing a policy framework for judiciously introducing modern
biotechnologies to Ghana. While the other partners only received 15 percent of the
Mission’s Economic Growth program funding, the technically complex nature of their
activities was time-consuming for the Mission to manage.

In addition, the Mission’s Economic Growth team was significantly involved with
assisting the Millennium Challenge Corporation (MCC), which signed a five-year, $547
million compact with the Government of Ghana on August 1, 2006. The focus of the
compact is closely aligned with the agribusiness export development and policy reform
components of USAID/Ghana’s Economic Growth program. By the time the MCC
Compact is underway, the Mission anticipates that its activities to improve private sector
competitiveness will have established critical networks, built supply chain controls and

1
 We included 8 of the 11 partners in our review—TIPCEE and 7 of the other 10 partners referred to here.
See Appendix 1 for a summary of our scope and methodology.


                                                                                                          3
systems and structured alliances that the MCC can build on to continue the U.S.
Government’s efforts to stimulate Ghana’s private sector growth as USAID’s program is
ending in FY 2009.



AUDIT OBJECTIVE
As part of the Office of Inspector General’s Fiscal Year 2007 Annual Plan, the Regional
Inspector General/Dakar conducted this audit to answer the following audit objective:

       •	 Is USAID/Ghana’s program to increase private sector competitiveness
          achieving its planned activities as intended?


Appendix I contains a discussion of the scope and methodology of the audit.




                                                                                     4
AUDIT FINDINGS

USAID/Ghana’s achievements through its program to increase private sector
competitiveness have been mixed. Although the partner receiving 85 percent of the
program funding achieved only slightly more than half of its planned activities in fiscal
year 2006, the activities that were achieved by this partner as well as other partners
have made a positive contribution to increasing the competitiveness of Ghana’s
agricultural products. In fiscal year 2006, only 27 of 46 planned results (58 percent) for
the Trade and Investment Program for a Competitive Export Economy (TIPCEE) were
achieved at the 90 percent level or higher, the threshold we used to determine
achievement. However, most of the planned results that were achieved were fully met
or exceeded, and TIPCEE also achieved two of its three key impact targets.
Additionally, activities conducted by the other partners receiving the remainder of the
funding had higher achievement rates (63 of 65 planned results).

For example, the results reported by six of the seven2 other partners included in our
review showed they achieved 63 of their 65 planned results, representing a 97 percent
achievement rate. Although these results reflect a small portion of the program funding,
nevertheless, the achievements are positively contributing to the Mission’s goals. These
partners were primarily involved in activities to improve Ghana’s enabling environment
by consulting with the Government of Ghana in ways to reform policies and regulations
to encourage private sector growth. For example, one partner conducted training for
Ghanaian scientists in bio-safety where participants had the opportunity for hands-on
interaction with confined field trial applications. Another partner performed macro
economic modeling to study the economic implications of energy costs on Ghana’s
growth prospects.

Although the achievement rate under the TIPCEE program was less than expected, the
program has nevertheless had a positive impact. For example, of the 27 planned results
that were achieved according to our threshold, 21 of them were achieved at the 100
percent level or higher. This includes results related to the number of agricultural
producers using sustainable natural resource management practices and the number of
women’s organizations and commodity organizations receiving assistance. Three of the
46 indicators that TIPCEE reports on are considered key indicators to measure higher
level impact of the program – two measuring overall economic growth and one
measuring progress towards poverty alleviation. For FY 2006, TIPCEE reported a $5.4
million increase in the value of commodities exported by firms assisted through the
program, one of the two overall economic growth measures. This exceeded the target of
a $5 million increase, occurring in part because TIPCEE introduced other commodities
for export, such as a new strain of okra popular in the United Kingdom. In addition, the
prices of commodities increased.

TIPCEE’s poverty alleviation indicator relates to the goals of the Presidential Initiative to
End Hunger in Africa (IEHA), and was achieved at the 98 percent level. IEHA aims to
promote agricultural growth to cut hunger and poverty by investing in agriculture

2
  We were unable to obtain any planning or reporting documents for one of the partners either at
the partner’s office in Accra or at the Mission due to staff turnover in both places. Therefore we
are only presenting results achieved by six of the seven other partners.


                                                                                                     5
activities of small-scale farmers in six countries and 3 regions in Africa. USAID/Ghana
expanded TIPCEE’s program scope from primarily being focused on overseas exports
by adding a poverty alleviation component that focused on producing food crops for
domestic and regional markets. To meet IEHA’s poverty alleviation targets, TIPCEE
launched a series of activities to extend its commodity reach beyond commodities for the
European market to food and staple crops with local and regional market potential. An
indicator that reports the number of rural households benefiting directly from TIPCEE
interventions is used to measure the progress being made in alleviating poverty through
these activities. For FY2006, TIPCEE’s target for this indicator was 3,600 households
and their efforts fell just short of full achievement, with 3,514 households benefiting from
the program activities.

With a life-of-project goal of raising Ghana’s exports by more than $55 million over 5
years, USAID/Ghana, through its TIPCEE program, has produced other notable
achievements. For example:

•	 TIPCEE has introduced geographic information systems (GIS) mapping, which is
   providing the local and international business communities with accurate data on the
   number of farms, their sizes, and commodity distribution to make large-scale
   exporting possible under internationally aligned standards for the first time. As a
   result, Ghanaian firms are now able to negotiate with multinational companies who
   previously were unaware of Ghana’s overall capacity to produce specific
   commodities. In addition, GIS mapping has become a tool for the allocation of
   development aid as well, helping the government of Ghana determine where to
   invest in feeder roads and post-harvest infrastructure such as cold storage facilities.




                                             This photo of an agricultural extension agent
                                             collecting data for geographic information system
                                             (GIS) mapping was provided by TIPCEE, which
                                             introduced GIS mapping to Ghana to obtain
                                             spatial data related to producer farms.       New
                                             ways to apply this technology to development
                                             activities are continuously being discovered. The
                                             photo was taken by a TIPCEE photographer
                                             during FY 2006 at an unspecified location in
                                             Ghana.




•	 USAID/Ghana has also improved the exporting of pineapples through a one-year
   pilot inspection program. The program was designed to help the Ghanaian
   pineapple export association bring their pineapples up to international standards for
   export to Europe.     TIPCEE contracted with an international inspection and
   certification company that trained association member firms in international


                                                                                            6
   standards and appropriate quality control systems. Although the pilot focused on 10
   member firms, the participation was expanded to include all 24 member firms, and
   the association went on to sign a two-year extension with the inspection company at
   their own expense. Furthermore, as a result of the success of this pilot program,
   Ghana’s mango association has also expressed interest in having the same activities
   applied to their industry.

•	 During FY 2006, TIPCEE provided technical and financial assistance to a Ghanaian
   company that produces juice and juice concentrate for export to Europe and the
   domestic market. Through the assistance, the company has designed a modern
   factory lab, readying the plant to supply 500 metric tons of pineapple concentrate to
   The Coca-Cola Company™ in FY 2007. This will require 6,000 tons of fresh
   pineapple, sourced mainly from Ghana’s smallholder producers.

•	 Through TIPCEE, USAID/Ghana also worked with Ghana’s smallholder producers to
   improve the quality of their fruit so they can increase household income through
   supplying produce to Ghanaian export firms. From farm planning to harvesting,
   TIPCEE provided technical advice to help farmers meet international quality
   standards such as instructing them on the optimal length for papaya stems to avoid
   fungal disease. In addition, TIPCEE supplied some model farms with irrigation
   systems to regulate the consistency of harvests and to demonstrate the difference in
   revenue received by the irrigated farms to farmers in the local community.

Despite these positive achievements, 19 of the 46 annual indicators were not achieved
at a 90 percent level or higher and the results for one key economic growth indicator fell
below the baseline level. For example, the number of USAID-assisted firms purchasing
produce from smallholders did not increase at all in FY 2006 from the baseline figure of
33, although the FY 2006 target was 40. In another example, the number of paid
services delivered by service providers and associations, (for example accounting firms
hired to introduce new financial management systems) was only 163, or 20 percent of
TIPCEE’s FY 2006 target of 800.

The second key economic growth indicator is related to the volume of commodities
exported by assisted firms. During FY 2006, while the value of commodities exported by
assisted firms increased (one key economic growth measure discussed earlier), the
volume of the commodities exported decreased (the other key economic growth
measure). For FY 2006, TIPCEE established a target of a 3,000-ton increase in the
volume of commodities exported by firms assisted by the program. However, due to
unforeseen factors, the volume of commodities dropped by 5,900 tons, resulting in a
variance of -2,900 tons from the baseline.

Two main factors contributed to this decrease. First, Ghana has traditionally produced a
variety of pineapple called smooth cayenne. However, in recent years a new variety of
pineapple known as MD2 was introduced to the European market that consumers
strongly prefer. As a result, diminishing international demand for Ghana’s smooth
cayenne variety of fresh pineapple forced Ghanaian growers to convert to MD2 in FY
2006, losing a growing period in the transition. Although volumes in FY 2006 were
below past performances, TIPCEE assisted the industry with its successful conversion to
the MD2 variety during FY 2006 and sizeable plantings of MD2 are expected to propel
the industry back to its former shipping levels and beyond.



                                                                                        7
The second factor causing the volume of commodities exported by assisted firms to fall
below the baseline figure was an unexpected mango crop failure. During FY 2006, none
of the Ghanaian mango trees produced fruit. According to TIPCEE’s agricultural
specialists, the failure was due to an unusually weak cold season. Mango trees in
Ghana require the temperature shock brought on normally by the cold season to induce
the trees to flower and bear fruit. The complete failure of mangos to produce in FY
2006, they explained, was an unusual occurrence.

Both the conversion from the smooth cayenne to the MD2 variety of pineapples and the
mango tree failure in FY 2006 were unforeseen events that negatively impacted the
results of the program. We commend USAID/Ghana through its TIPCEE program for
shifting their efforts to encourage the production of the preferred pineapple and consider
the decrease in volume attributed to the pineapple market as a one-time event. We
share their expectation that the pineapple export volume levels will rebound. The
decrease in volume attributed to the mango crop failure was caused by forces outside
the control of USAID/Ghana and TIPCEE. For those reasons, we are not making any
recommendations to address these shortfalls.

However, we are concerned about the future achievement of the poverty alleviation
indicator. As discussed earlier, in FY 2006, TIPCEE assisted 3,514 rural households,
representing a 98 percent achievement level against the target of 3,600. Since then, the
target has been revised upwards to a level where achievement over the life of the project
is at risk.


A Key Poverty Alleviation
Target Needs to be Revisited

 Summary: According to USAID’s Automated Directives System, targets should be
 ambitious but achievable. During TIPCEE’s second year, USAID/Ghana increased a
 key poverty alleviation target for the life-of-project from 30,000 to 100,000 households
 to benefit from the program. Mission management told us that they increased the
 target in order to meet the goals of the Presidential Initiative to End Hunger in Africa.
 After the target was raised, geographic information system mapping revealed that
 there were fewer rural households that could benefit from TIPCEE's interventions than
 the Mission estimated when they increased the target to 100,000. As a result, the
 Mission may be shifting resources away from effective economic growth activities in an
 attempt to achieve an ambitious but potentially unrealistic poverty alleviation target,
 and putting the achievement of other key indicators at risk.

According to USAID’s Automated Directives System (ADS), targets should be ambitious,
but achievable. During TIPCEE’s second year, USAID/Ghana increased a key poverty
alleviation target—the number of rural households benefiting directly from TIPCEE
interventions—from 30,000 to 100,000 over the life of the project. This increase was
approved by the Cognizant Technical Officer (CTO) for TIPCEE in order to meet the
goals of the Presidential Initiative to End Hunger in Africa (IEHA). In order to find ways
to meet this increased target, TIPCEE, with Mission oversight, conducted a review of
commodity options and identified several staple food commodities that offer the potential
for broad-based impact, consistent with the objectives of IEHA to increase rural incomes



                                                                                         8
and cut hunger and poverty. Based on this review, the CTO estimated that 100,000
rural households could benefit directly from TIPCEE interventions.

After the key poverty alleviation target was raised, TIPCEE’s Monitoring and Evaluation
Specialists discovered new information on Ghana’s farming capacity using geographic
information system mapping to establish a comprehensive database regarding
pineapple, cashew, papaya, vegetable and mango production.               This mapping
information revealed that there were fewer rural households that could benefit directly
from TIPCEE's intervention than the Mission estimated when the CTO increased the life-
of-project target to 100,000. Based on the new information, TIPCEE’s management
expressed concern over whether this revised target would be achievable over the life of
the project.

The primary concern is the extent to which the Mission, through TIPCEE, would redirect
resources from other Economic Growth program activities in their attempt to meet an
unrealistic target associated with a Presidential initiative program. TIPCEE staff
indicated that if they had to achieve the higher target of 100,000 rural households, they
might have to shift significant resources away from some of their successful efforts to
support higher levels of the horticulture supply chain. This in turn could negatively
impact TIPCEE’s ability to achieve the other two key targets over the life of the project.
Unless this is addressed by the Mission, the achievement of one indicator may be
sacrificed for the sake of trying to achieve another. Therefore, we make the following
recommendation.

           Recommendation No. 1: We recommend that USAID/Ghana revisit and
           revise as necessary TIPCEE’s key poverty alleviation target taking into
           account the geographic information system mapping information among
           other things to ensure appropriate allocation of resources and
           achievement of program goals.


Better Documentation of
Monitoring Activities Needed

Summary: Although the Economic Growth Team’s Cognizant Technical Officers
(CTOs) were actively monitoring partner activities, we found they did not systematically
document or maintain evidence of their monitoring activities. This occurred because
there were no procedures specifically requiring documentation of such actions. The
Government Accountability Office’s Standards for Internal Control in the Federal
Government states that all transactions and other significant events need to be clearly
documented and that the documentation needs to be readily available for examination.
Additionally, USAID’s Automated Directives System emphasizes the importance of site
visits and states that reports of site visits should be written and maintained in official
files. This lack of documentation of partner contact could result in key information not
being available to current or future Mission management.


All three of the Economic Growth Team’s CTOs that were available for us to interview3

3
    The Team Leader, who is also a Cognizant Technical Officer, was on home leave during our visit.


                                                                                                      9
during the time of our fieldwork stated that they were very proactive in monitoring
program activities. They indicated that they had ongoing and frequent contact with the
implementing partners and made regular visits to the partners’ offices and the sites
where program activities were being implemented. The CTOs also mentioned that they
regularly reviewed performance data submitted by the partners in their progress reports.
Staff from the implementing partners corroborated this, indicating that the CTOs were
very involved in all aspects of the program activities. However, we found that the CTOs
did not always document these communications and interactions. For example, we
found no documentary evidence that the CTOs reviewed performance data to determine
how partners were progressing towards planned activities.

According to the CTOs, the lack of documentation occurred for several reasons. First,
the CTOs did not realize the extent to which partner contacts should be documented as
there were no procedures in place to specifically require CTOs to document and
maintain records of their monitoring activities of the partners. Secondly, the CTOs
attributed the lack of documentation to staff time constraints. Because of the Economic
Growth team’s heavy workload, lower priority was placed on administrative activities
such as documenting meetings.

The Government Accountability Office’s Standards for Internal Control in the Federal
Government states that all transactions and other significant events need to be clearly
documented and that the documentation needs to be readily available for examination.
Additionally, according to ADS 303.3.17, site visits are an important part of the CTO’s
effective award management and when site visits are made, a brief report highlighting
the findings should be written and placed in the award file. Without local procedures
being developed, USAID/Ghana risks being in compliance with the ADS requirements.
Site visits and reviews of performance data are important events in the overall
monitoring process and should be documented.             Furthermore, without formally
documenting visits and other key encounters with implementing partners, important
program information may not be available to Mission management, and could ultimately
be lost if any of the current staff were to leave USAID. To address this weakness, we
make the following recommendation.

   Recommendation No. 2: We recommend that USAID/Ghana develop specific 

   procedures to require that the Cognizant Technical Officers document key 

   contacts with implementing partners including visits to monitor activities and

   reviews of performance data. 





                                                                                     10
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Ghana agreed with the findings and the two recommendations in the draft audit
report. Based on appropriate actions taken by the Mission, management decisions have
been reached on both recommendations and the recommendations are considered
closed upon issuance of this report.

Recommendation 1 states that USAID/Ghana should revisit, and revise as necessary,
Trade and Investment Program for a Competitive Export Economy (TIPCEE’s) key
poverty alleviation target, taking into account the geographic information system
mapping information among other things, to ensure appropriate allocation of resources
and achievement of the program. The Mission concurred with this recommendation and
has taken action as recommended. According to the Mission, the USAID/Ghana
Economic Growth Office Team Leader, the CTO for the TIPCEE activity, and other
TIPCEE staff reviewed the key poverty alleviation targets in light of the mapping and
other information available. The type of intervention needed for each commodity was
also assessed and a revised matrix was approved that documents TIPCEE’s revised
interventions for each commodity that would lead to achieving the overall goal of
100,000 rural household benefiting from the program. After this review, USAID/Ghana
agrees that the global figure of 100,000 rural household beneficiaries is ambitious but
achievable and will continue to closely monitor progress against the targets. The
Mission provided a written document summarizing the review meeting held on April 13,
2007 as well as the matrix showing the revised commodity targets. Based on these
actions taken, a management decision has been reached and this recommendation is
considered closed.

Recommendation 2 states that USAID/Ghana should develop specific procedures that
require that the Cognizant Technical Officers to document key contacts with
implementing partners including visits to monitor activities and reviews of performance
data. The Mission concurred with this recommendation and has taken action as
recommended. According to the Mission, the Team Leader implemented standard
procedures for documenting meetings, site visits and reviews and forms for reporting
various types of meetings including site visits have been created and must be completed
within one week of the visit. Additionally, the Economic Growth Office staff each
participated in the Mission-sponsored training with a USAID File Management Specialist.
During the two-week period, project files were organized to meet the GAO’s Standards
for Internal Control. Lastly, the Program Assistant has been designated with the
responsibility of maintaining communication files on a regular basis. The Mission
provided examples of the documents cited in their response. Based on these actions, a
management decision has been reached and the recommendation is considered closed.

Management’s Comments are included in their entirety (without attachments) in
Appendix II.




                                                                                    11
(This page intentionally left blank)




                                       12
                                                                              APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Dakar conducted this audit in accordance with U.S.
generally accepted government auditing standards. The objective of the audit was to
determine if USAID/Ghana’s program to increase private sector competitiveness was
achieving its planned activities as intended.

Our audit covered USAID/Ghana’s planned activities and corresponding achievements
for FY 2006. We included 8 out of 11 of USAID/Ghana’s implementing partners in the
Mission’s Economic Growth portfolio, for coverage of 97 percent of the overall program
funding during FY 2006. Since its inception and as of September 30, 2006,
USAID/Ghana obligated $24.5 million of its Economic Growth program funding. The 8
implementing partners included in our review accounted for $23.7 million of these
obligated funds. We reported on all 111 indicators under their fiscal year 2006 program
activities selected for review and compared the data of each indicator to determine if
results are being achieved.

In planning and performing the audit, we reviewed monitoring and reporting activities at
both the Mission level and the partner level. We reviewed the management controls of the
Mission’s monitoring and reporting process based on USAID’s guidance contained in the
Automated Directives System (ADS). This included reviewing reports prepared by the
Mission and partners.

In order to develop an understanding of the elements of the supply chain systems
involved in USAID/Ghana’s export business development component, we conducted
extensive site visits to see farms, laboratories, pack houses, the port of Ghana, juice
factories and other activities outside of Accra. In order to understand the Mission’s
efforts to further Ghana’s enabling environment, we met with 5 partners in their Accra
offices to learn about their efforts to reform the policy and regulatory landscape
necessary to facilitate private sector opportunities.

Audit fieldwork was performed at USAID/Ghana in Accra, Ghana from January 29, 2007
through February 15, 2007.

Methodology
To answer the audit objective, we weighted each partner’s achievements by the amount
of funding received. This was necessary because one of the 8 partners we reviewed
received the majority of funding (85 percent). The other 7 partners collectively received
almost all of the remaining funding for the program. As a result, we based our answer to
the audit objective primarily on the results of the partner receiving the largest portion of
program funding. We did, however, evaluate the achievements of the other partners and
include a discussion of them in the body of this report.

The following criteria were used to answer the audit objective:




                                                                                         13
                                                                             APPENDIX I


           •	 If 90 percent of the fiscal year 2006 selected planned outputs achieved 90
              percent of the targeted outputs, the audit objective would be answered
              positively.

           •	 If 80 to 89 percent of the fiscal year 2006 selected planned outputs
              achieved 90 percent of the targeted outputs, the audit objective would be
              answered positively but with a qualification.

           •	 If less than 80 percent of the fiscal year 2006 selected planned outputs
              achieved 90 percent of the targeted outputs, the audit objective would be
              answered negatively.

In planning and performing the audit, we obtained an understanding of and assessed the
Mission’s controls related to monitoring and reporting. We reviewed applicable USAID
policies and procedures, cooperating sponsors’ agreements, funding pipeline by sub-
obligation, implementation plans, results reports, and the Mission’s FY 2006 Federal
Manager’s Financial Integrity Act annual certification for any management control
weaknesses related to the program under audit. We also reviewed the findings from a
prior audit issued by our office in July 2004 to determine if our recommendations
adequately resolved those issues. We reviewed the most recent Data Quality
Assessment.

We obtained an understanding of activities for FY 2006 by interviewing CTOs about each
partner’s performance. Based on ADS guidance, we assessed the adequacy of the
Mission’s monitoring and reporting activities. We were not able to review any annual
reporting information because none was required at the end of FY 2006 due to the Agency-
wide priority of developing an Operational Plan (OP) based on new indicators. For the
same reason, the Mission did not perform a year-end portfolio review to assess partner
progress towards their beginning-of-the-year indicator targets. The Mission however
conducted a year-end portfolio review which focused on new OP indicators. In order to
determine if partners were achieving their planned activities as intended, we reviewed
the Mission’s mid-year portfolio evaluation and then met with each Cognizant Technical
Officer to obtain a year-end update on the status of each partner’s achievements.

At the implementing partner level, we interviewed representatives in their offices in Accra
to develop an understanding of activities, progress towards planned achievements,
monitoring and oversight of procedures, and data collection and reporting processes.
We met with the Monitoring and Evaluation Specialists at the Mission and partner levels
to develop a detailed understanding of how data is collected and reported. We
performed a detailed review of the largest partner’s indicators to understand why they
only achieved 58 percent of their targets in FY 2006.

We conducted extensive site visits to observe USAID’s largest partner’s commodity
export supply chain systems. In addition, we conducted two site visits to gain an
understanding of the other partners’ activities.




                                                                                        14
                                                                                  APPENDIX II 





MANAGEMENT COMMENTS



May 16, 2007

MEMORANDUM

TO:                  Nancy T. Toolan, RIG/Dakar

FROM:                Dennis Weller, Acting Director /s/

SUBJECT:             RESPONSE TO RIG AUDIT OF USAID/GHANA’S PROGRAM TO
                     INCREASE PRIVATE SECTOR COMPETIVENESS.
                     (Report No. 7-641-07-00X-P)

We acknowledge receipt of the Inspector General’s draft audit report of USAID/Ghana’s
program to increase private sector competiveness. Mission Management would like to thank the
IG auditors for their professionalism and collaboration/coordination with USAID/Ghana
throughout this exercise. Below are USAID/Ghana’s responses to the two recommendations of
subject audit report.

Recommendation No. 1: We recommend that USAID/Ghana revisit and revise if necessary
TIPCEE’s key poverty alleviation target taking into account the geographic information
system mapping information among other things to ensure appropriate allocation of
resources and achievement of program.

Mission’s comments: Mission concurs with and has implemented the recommendation.

Action taken: The USAID/Ghana Economic Growth Office Team Leader, the CTO for the
TIPCEE activity, and key TIPCEE staff reviewed the key poverty alleviation targets. In order to
do so appropriately and accurately, we used recently gathered GIS mapping information as well
as ground-truthing conducted by TIPCEE, the CTO and USAID/Ghana monitoring and
evaluation staff. The key persons then assessed type of intervention for each commodity; a
matrix was created and approved that details TIPCEE’s planned interventions. All beneficiaries
are assisted within the context of viable, defined market opportunities that adhere to effective
economic growth initiatives. After this review, USAID/Ghana agrees that the global figure of
U.S. Agency for International Development
E45/3 Independence Ave.                     Tel: 233-21-228440/780580
(Next to Pegasus Building)                  Fax: 233-21-231937/770303
P.O.Box 1630, Accra-Ghana                   www.usaid.gov/missions/gh
                                                                                   APPENDIX II



100,000 rural household beneficiaries is ambitious but achievable. USAID/Ghana will continue
to closely monitor progress against the targets.

Recommendation No. 2: We recommend that USAID/Ghana develop specific
procedures to require that the Cognizant Technical Officers document key contacts with
implementing partners including visits to monitor activities and reviews of performance
data.

Mission’s comments: Mission concurs with and has implemented the recommendation.

Action taken: The Team Leader implemented standard procedures for documenting meetings,
site visits and reviews. Reporting forms for various types of meetings including site visits have
been created and must be completed within one week of the visit. Additionally, the Economic
Growth Office staff each participated in the Mission-sponsored training with a USAID File
Management Specialist. During the two-week period, project files were organized to meet the
GAO’s Standards for Internal Control. Lastly, the Program Assistant has been designated with
the responsibility of maintaining communication files on a regular basis. The Staff fully
understands and has implemented the OIG recommendation.




U.S. Agency for International Development
E45/3 Independence Ave.                     Tel: 233-21-228440/780580
(Next to Pegasus Building)                  Fax: 233-21-231937/770303
P.O.Box 1630, Accra-Ghana                   www.usaid.gov/missions/gh
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
